IN THE
SUPREME COURT OF THE UNITED STATES
No.

EMEM UFOT UDOH
Petitioner,
vs.
MINNESOTA DEPARTMENT OF HUMAN SERVICES ET AL,
Respondents.

CERTIFICATE OF SERVICE
'*

On April 5. 2021. Petitioner, Emem Ufot Udoh, hereby certify that a copy of
the following documents:
1. Motion For Leave To Proceed In Forma Pauperis',
2. Affidavit Or Declaration To Support Motion For Leave To Proceed In
Forma Pauperis',
3. Petition for a Writ of Certiorari; and
4. Appendix.
was served upon the Clerk of the United States Supreme Court, properly addressed
to:
Office Of The Clerk
United States Supreme Court
One First Street North East,
Washington, D.C. 20543,
and on every other person required to be served by U.S. Mail as follows:
MR. FEDERIC J. ARGIR
MR. ALI P. AFSHAR JAVAN
Minnesota Attorney General’s Office
Suite 1100, 445 Minnesota Street
St. Paul, MN 55101-2128
Attorneys for Minnesota Department of
Human Services and Charles E. Johnson.

MR. DANIEL KACZOR
MS. CHRISTIANA M. MARTENSON
Hennepin County Attorney’s Office
Government Center, 300 S. Sixth Street
Minneapolis, MN 55487

RECEIVED
APR 1* 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

MR. DANIEL KACZOR
MS. CHRISTIANA M. MARTENSON
Hennepin County Attorney’s Office
Government Center, 300 S. Sixth Street
Minneapolis, MN 55487
Attorneys for Donothan Bartley, Ann Norton,
Daniel E. Engstrom, Catrina Blair and Linda
Thompson.

MR. JOHN P. EDISON
MR. MICHAEL J. WALDSPURGER
RUPP & ANDERSON
Suite 2800, 333 S. Seventh Street
Minneapolis, MN 55402
Attorneys for Independent School
District, No. 279, Joanne Wallen, Karen
Wegerson, and Ann Mock.

MR. JOHN MARTI
MS. LAUREN OLIVIA ROSO
DORSEY & WHITNEY
Suite 1500, 50 S. Sixth Street
Minneapolis, MN 55402-1498
Attorneys for CornerHouse, Patricia Harmon,
Bill Koncar, and Grace W. Ray.

MR. PAUL D. REUVERS
MR. NATHAN C. MIDOLO
IVERSON & REUVERS
9321 Ensign Avenue South
Bloomington, MN 55434
Attorneys for City of Maple Grove, City
of Maple Grove Police Department, and
Melissa Parker.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 5. 2021

Respectfully Submitted,

Emem U. Udoh, 245042
Pro se Litigant,
7600 525th Street
Rush City, MN 55069

